                                NATIONAL SCIENCE FOUNDATION
                                        1800 G STREET. N.W.
                                       WASHINGTON. D.C. 20550




           OFFICE OF
     INSPECTOR GENERAL




                                         Introduction
       This case involves [                    ] (the "Principal Investigator" or "PI"), recipient
of a Presidential Young Investigator award from the National Science Foundation (NSF). The
PI was a professor in [                1 at I:                                ] (the "institution")
from [              ] until [           1, when he moved to [                              1. The
case also involves one of the PI'S graduate students at the institution, [                   1 (the
"graduate student"), who left the United States in the Winter of 1988-1989. The allegations
were brought by another professor at the institution, [             ] (the "other professor") and
one of the other professor's graduate students, [         ] (the "other graduate student"). The
case focuses on two papers, [

                               ] (paper "G"),by the other professor and the other graduate
student (the "authors of paper G " ) ,and [
                                                                                                 I
(paper "H"'), by the PI and the graduate student, and the graduate student's dissertation (the
"dissertation"). Paper G was submitted for publication in November 1986, and published in
March 1988, while paper H was submitted in November 1987 and published in November 1988;
the dissertation was formally orally defended on 16 November 1988. Paper H stated: "This
paper is based upon work partly supported by the National Science Foundation under Grants No.
[               I' [           I, [             I' and [            1.

                                               11.
                                  The Institution's Actions
       This case began with the receipt by this office on 11 April 1989 of a letter dated 6 April
1989 from the institution's dean of graduate studies. In that letter, the dean said the institution
had completed "an initial inquiry and intend[&] to conduct an investigation" into an allegation



       1
         The papers will be referred to as "G" and "H" to match the terminology used in the
institution's investigation committee report.
that paper H had plagiarized another paper.' On 14 February 1990, this office received a letter
dated 13 February 1990 from the institution's new dean of graduate studies (the "dean"), which
said:

               "The committee has now completed its investigation and . . . has
       determined that [paper HI plagiarized substantial portions of [paper GI. . . . The
       investigative committee also determined that [the graduate studentI7sdoctoral
       thesis plagiarized substantial portions of the same [paper GI.

               ". . . [The PI] is no longer an employee of [the institution]. . . . [The
       graduate student] did not receive a Ph.D. from [the institution]. To the best of
       our knowledge, he is now in his homeland of Taiwan.

                "Because [the PI and the graduate student] are all no longer at [the
       institution], we believe we have done all we can unilaterally to resolve this
       matter. . . . 3
                    11




Accompanying the dean's letter was the institution's investigation committee (the "committee")



       21t appears that the committee that conducted the inquiry was actually the graduate
student's "final doctoral examination committee" (the "examination committee"), reconstituted
of the members who had approved the graduate student's dissertation three months before -
except that the PI, the graduate student's advisor, was excluded. (The dean had withdrawn her
approval of the graduate student's dissertation before the examination committee began its formal
inquiry.) The examination committee conducted a "preliminary, informal inquiry to determine
whether further investigation was warranted." In the course of the inquiry, certain evidence was
"reviewed and discussed" that was not provided to either the graduate student or the PI to review
and rebut prior to the committee's decision. (Letter dated 13 February 1990 to the PI from the
executive vice president of the institution; letter dated 9 March 1989 to the dean from the
examination committee.) The examination committee then "voted to reject [the graduate
studentI7sdissertation by a vote of 3-1 (3 in favor of rejection, 1 against rejection). " (Letter
dated 9 March 1989.)

        3 ~appears
            t      from this language that the examination committee's previous rejection of the
graduate student's dissertation (see note 2) had been considered by the institution to be final.
Thus, it would seem that the institution imposed a sanction on the graduate student before the
institution began its investigation, without providing the graduate student timely access to the
evidence against him.

       It is not at all clear from the record whether the institution complied with the due process
requirements of the Fourteenth Amendment of the United States Constitution regarding the
graduate student, which as a state entity it must. Although we find this to be troubling, it is not
our province to review the sanctions imposed by institutions for acts of misconduct.
report (the "report"), which concluded:

        "(1)    The dissertation written by [the graduate student] has plagiarized
                substantial parts of . . . paper G.

        "(2)   The paper H, co-authored by [the graduate student] and [the PI], has
               plagiarized substantial parts of the . . . paper G."

The report was signed by the three members of the committee; appended to the report were
"additional comments" by one of the committee's members, which concluded:

              "During my investigations of the plagiarism complaint, I did not observe
       any direct involvement of [the PIJ. Transcripts of [the graduate studentl's
       telephone conversation [with the chairperson of the committee] indicate the same.
       However, [the PI] has not clearly explained his co-authorship in the paper H that
       has plagiarized substantial parts of . . . paper G. "

       Upon request, the institution provided to us background material regarding this matter,
including a copy of the graduate student's dissertation. The PI also provided documents,
including letters in which he set forth his version of the events.

                                                m.
                                Evaluation of the Allegation
        The institution's report did not resolve to our satisfaction the factual issues in this case.
Furthermore, as quoted above, the institution stated that it had no further interest in the case
because both the PI and the graduate student were no longer there. We therefore evaluated the
issues independently, as discussed below, based on the materials provided by the institution and
the PI.

                                                 A.
                                             Plagiarism

        Neither paper H nor the dissertation contains narrative text from paper G (submitted for
publication in November 1986). However, as shown in the Appendix, virtually all of the
equations in paper H (submitted for publication in November 1987) are identical or
mathematically equivalent to equations in paper G, and all of the equations in paper H appear
in the dissertation (defended in November 1988).
       There is no citation to paper G in paper H.4

      Paper H is focused on the presentation of a method, which is presented via the
"governing equations". The abstract at the beginning of paper H makes this clear:

              "A method is proposed here . . . . The . . .-method is used . . . . The
       unique feature of the method is that it is extremely efficient . . . . The method
       can be used to study . . . . It is verified with experimental and numerical results
       available in the literature. The robustness of the algorithm is confirmed by
       applying it to analyze several problems of practical importance. The method is
       robust yet simple, accurate, and economical." (Paper H, at p; 69.)

An "Introduction" is followed by a section titled "Proposed methodology, " which begins: "The
. . . method proposed by [the other professor in an earlier paper than paper GI . . . has been
extensively modified . . . ." (Paper H, at p. 70.) Paper H ends with a section titled "Summary
and conclusions":

              "The governing equations . . . have been developed. Procedures . . .
       were also proposed. The . . . method is used . . . . The unique feature of the
       proposed method is that it is extremely efficient . . . .

              "The proposed method is verified with experimental and numerical results
       available in the literature. It is observed that the proposed method is very reliable
       and accurate . . . . The proposed method is extremely economical compared to
       other methods in terms of computer time required to solve a problem. The
       method is also applied to some problems with practical implications to show the
       robustness of the algorithm. " (Paper H, at p. 89.)

                                              C.
                                        The Dissertation

       The dissertation cites paper G , on pages 196 and 198, but only with regard to the solving
of a particular example problem, not as the source of the method itself?



      4Although paper G had been submitted (November 1986) but not yet published when
paper H was submitted (November 1983, paper G had been published (March 1988) well before
paper H was actually published (November 1988).

      'paper G is reference "(108)" in the dissertation. On page 196: "An         . . . is analyzed
                                                                                     (continued.. .)
        Most of the material that was published in paper H is contained in chapter 4 in the
dissertation, which begins:

              "An algorithm is developed . . . using the assumed stress method
       described in Chapter 3. In this chapter, the same method is extensively
       modified . . . ." (Dissertation, at p. 86.)

The two substantive subchapters of this chapter both have titles that begin "Derivation of   . . . ."
(Dissertation, at pp. 86, 118.) Chapter 4 concludes:

               "In this chapter, detailed derivations . . . are made. An algorithm . . .
       is proposed. Several examples are given to show the accuracy and reliability of
       the proposed method . . . ." (Dissertation, at p. 132.)

The portion of the material from paper H that appears in chapter 5 of the dissertation is in two
subchapters, the titles of both of which begin "Derivation of Governing Equations . . . ."
(Dissertation, at pp. 135, 145.)

                                              D.
                                Conclusion Regarding Platziarism

       The method that is the substance of paper H and the corresponding substantive portions
of the dissertation - that is the ideas, as presented via the equations - are the same as
paper G, and the focus of all three is the same: the presentation, via equations, of the method.
Both the dissertation and paper H present the substantive material from paper G as original
contributions of the PI and the graduate student, which it was not.




       '(. ..continued)
here. . . . m e authors of paper GI (108) used the example to solve . . . problems." On page
198, with regard to the same example: "In this particular case, the responses . . . are quite
different. However, these discrepancies were also observed by others (108). . . . The inability
to verify this . . . case caused us to consider Case 2, which was also considered by [the authors
of paper GI (108). . . . Both results are in complete agreement and justify the validity of the
proposed method and verify the proposed algorithm. "
                                                rv.
                                           Culpability
                                              A.
                                      The Graduate Student

       The graduate student said:

                "I got a @re-publication] copy of . . . paper [GI from [the other
       professorl's secretary and I verify each equation. I didn't b o w where it was
       going to publish at that time. I discussed many times with [the other graduate
       student] about his paper and I tried to interpret each equation . . . . [The other
       graduate student] gave me a lot of help but he didn't give me his [computer]
       program. I develop . . . my . . . [computer] program by myself. It took me a
       lot of effort (about 10 months) to develop it. After finishing the . . . [computer]
       program I wrote a paper about what I did.6 At that time I had a naive idea. I
       think if I have a little bit of new finding and different application . . . then I can
       publish a paper. That is a very serious mistake. I admit I didn't give [the
       authors of paper GI credit at that paper. I apologize to them.

               ". . . I didn't mention whole the situation to [the PTJ until Dec. 9 1988.
       [The PI] also unaware of my contact with . . . [the other professor]. The same
       problem happened in my thesis. However, Cpaper GI was quoted in my
       bibliography because I knew wheie it was published. . . ." ("Memorandum"
       signed by the graduate student, marked received by the institution 3 January
       1989, at p. 2.)

        Both the graduate student and the PI seem to perceive this case as the mere omission of
a citation. In one letter, the PI stated that the graduate student's

       "only mistake was an innocent failure to refer to [the] then-unpublished
       paper [GI . . . . However, [the graduate studentl's willingness to acknowledge
       his sources of information is demonstrated by the inclusion of three references to
       [the other professor]'^ prior work on the topic in [paper H], and by his
       subsequent references to Cpaper GI. " (Letter dated 11 April 1991 to this office
       from the PI, at p. 2.)


       m e paper being referred to is paper H, which, as discussed above, is about a method,
not a computer program. The only reference to a computer program is the following: A
computer program is developed to do all the operations described in this paper. This program
is used to solve several problems as described in Section 4." (Paper H, at p. 81.) The focus
of paper H is the method - the examples are presented only to provide "some verification" of
"[tlhe accuracy, efficiency, and versatility of the proposed method . . . ." (Paper H, at p. 82.)
We disagree. What has been presented in paper H, and the corresponding portions of the
dissertation, is a method. That method, including virtually every equation in its development,
was taken by the graduate student from a pre-publication copy of paper G. Even in the
dissertation, the citations to paper G utterly failed to convey the extent of the contribution to the
dissertation from that source.

        The graduate student plagiarized paper G in paper H and his dissertation, which is
misconduct in science under NSF's regulatiom7 However, the graduate student left the United
States in the winter of 1988-1989 and remains outside of the United States. Given the fact that
the graduate student has not received federal funding for more than three years and is not likely
to apply for funding in this country in the future, we believe we should take no action against



      745 C.F.R. 5 689.1(a)(l). In response to a draft version of this Report, in the graduate
student's defense the PI said that our conclusion

       "makes me wonder whether we are using the same definition of plagiarism. I
       have always defined plagiarism as deliberately taking the work of someone else
       and attempting to present it as one's own for purposes of personal gain (not
       necessarily financial gain). . . . If someone performs original work, and in the
       course of that work extends unpublished work with the permission and
       cooperation of the author, but omits that reference because of inexperience, does
       NSF consider him to be a plagiarist?" (Letter dated 24 February 1992 to this
       office from the PI, at p. 4.)

He also said:

       "No one can claim a copyright on a theory that is developed and available in the
       open literature. In my opinion, the only way one can keep a theory proprietary
       is by not publishing it. . . . DJhe point is that this was not plagiarism, but an
       innocent and relatively harmless mistake. [The authors of paper GI did not lose
       anything important because of it. There were no financial interests at stake, nor
       was there substantial prestige to be lost, since lpaper GI appeared earlier in the
       literature than did Cpaper H]." (Letter dated 13 February 1992 to this offrce from
       the PI, at p. 9.)

        NSF's prohibition of plagiarism in proposing, carrying out, or reporting results from
activities funded by NSF, includes taking credit for words or ideas that are not one's own. Even
if "[tlhere were no financial interests at stake, nor was there substantial prestige to be lost,"
plagiarism is absolutely improper. On the other hand, if proper attribution is provided, then the
words and ideas of others may be freely used. In this case, however, the substance of paper G
- the ideas presented therein - is what was taken and presented, in paper H under the names
of the PI and the graduate student, and in the dissertation under the graduate student's name.
In our view this constitutes extensive plagiarism under NSF's definition of misconduct.
the graduate student in this matter.

                                              B.
                                    The Princi~alInvestigator

        As related above, the graduate student said that he did not mention to the PI that he had
obtained a pre-publication copy of paper G until the' PI asked him about it in December 1988,
after the publication of paper H and approval of his dissertation. In a telephone conversation
(after the graduate student had returned to Taiwan) with the chairperson of the committee, the
graduate student insisted that the PI "is really innocent in this case",

       "so I really hope the whole case will stop there. Because I already left [the
       institution]. That means that I take full responsibility because I made mistakes
       because I didn't give them enough credit for the published paper. I think if
       anyone else shouldn't take any responsibility." (Tmscript dated 10 August 1989,
       at p. 18.)

The PI also said that he was unaware of paper G until he learned of the other professor's
allegations in December 1988. (E.g.,letter dated 27 June 1989, at pp. 12-14.) There is no
contrary evidence in the record.'

       In a letter to the institution, the PI discussed their preparation of paper H:

                "Let me explain how [the graduate student] and I worked at [the
       institution]. First, [the graduate student] would come up with a very rough
       version of a paper, including equations and figures. He would then give it to me


       m e other professor alleged that the PI must have known about paper G before he
submitted paper H for publication, because the other professor had given a talk at a conference
that the PI had attended, and the paper written by the other professor that was published in the
proceedings of that conference cited paper G as "to appear". (Letter dated 20 July 1989 to the
chairperson of the committee from the other professor, at 2.) We have concluded to the
contrary: it is clear from the evidence that the PI did not attend the other professor's talk at the
conference, and the volume of the published pnxeedings (there were four altogether) that he
obtained did not contain the other professor's paper. (Letter dated 9 October 1989 to the
chairperson 'of the committee from the PI, at pp. 5-6.)

       As explained above, the graduate student had not cited paper G in paper H; it had not
yet been published when paper H was written and submitted for publication (although the
graduate student had obtained a pre-publication copy before he began his work). The graduate
student cited paper G in the dissertation, but, as explained above, only with regard to one of the
examples: In these circumstances, we do not believe the PI can be faulted for not having
checked each of the 142 references in his graduate student's dissertation.
       for my opinion. I would take several weeks to look into the paper in detail,
       derive some of the equations in case of any doubt or discuss my concerns with
       [the graduate student], and critically look at all the figures. Once I was satisfied,
       [the graduate student] and I would sit down together and rewrite the whole paper
       sentence by sentence. This rewriting process generally took several days.

               ". . . I did not help [the graduate student] with the derivation of the
       equations, one by one, in [paper H]. However, by reviewing and criticizing his
       work and asking for explanation and checking his work and by comparing the
       examples with other works available on the subject, I perfected the work, and
       thus indirectly helped him derive the equations." (Letter dated 9 October 1989,
       at p. 10.)

       The PI'S assertion that he had gone over each of the equations in paper H with the
graduate student, is consistent with the substantive merences we observed, as shown in the
Appendix to this Report, between some of the equations in paper G and the corresponding
equations in paper H. We asked the PI to explain the differences, which he did in a letter dated
11 April 1991. He said that the differences in signs in paper H's equations 34, 35, 40, 46, 53,
54, A.6, and A.9 are due to sign conventions - the corresponding equations in papers G and
H are correct and internally consistent. The equations in paper G that correspond to paper H's
equations 38 and 39 are in error. (Letter dated 11 April 1991, at p. 14.) The PI'S explanation
was verified by an NSF expert in this field.9


      gThe differences in the equations in paper H and paper G, and particularly the correction
in paper H of errors in paper G, are consistent with the active supervisory review that both the
graduate student and the PI contend that the PI engaged in. In response to a draft version of this
Report and an inquiry from us, the PI further explained that

       "the evaluation of the equations was a daborative effort between [the graduate
       student] and me. This took place in the Fall of 1987, and at this point it is
       impossible to remember precisely what was done by whom. . . . We both carried
       out our responsibilities in full, except that he did not tell me about the existence
       of the Cpaper GI manuscript. . . . Again, it was [the graduate studentl's
       responsibility as my student to perform the work, and my responsibility as his
       advisor to determine direction and scope of his work, assess the quality of his
       work,' and make recommendations for improvements. . . . I was completely
       unaware of the existence of the [paper GI manuscript until December 9, 1988.
       This is not because I did not provide adequate supervision, but because there is
       no humanly possible way for me to detect the existence of an unpublished
       manuscript. I do not have the power to read minds. " (Letter dated 24 February
       1992 to this office from the PI, at pp. 2-4.)

                                                                                    (continued.. .)
       We conclude that the PI was unaware of the plagiarism of paper G, and we have no basis
on this record to assert that he should have become suspicious in the course of his routine
interactions with the graduate student in preparing the work for publication.1°




       '(. ..continued)
With these additional explanations provided by the PI, we believe - contrary to the additional
comments appended to the institution's report by one of the institution's committee's
members - that the PI has "adequately explained his co-authorship in the paper H that has
plagiarized substantial parts of . . . paper G."

        '%e PI has argued at great length to the effect that there can be no plagiarism if there
was no genuine profundity to the copied work. For example, the PI stated in a letter to the
institution that "we did not refer to the paper" G because "the information in this paper did not
originate with" the authors, "and all of it was originally authored by other researchers." (Letter
dated 27 June 1989, at p. 23.) In response to a specific request by the committee for a reference
to support this statement, the PI replied: "In this comment, if I understand it correctly, the
committee thinks that [the authors of paper GI were the fmt to solve . . . . As I pointed out
earlier, there is no uniqueness . . . . This is an obvious extension . . . ." (Letter dated 9
October 1989, at p. 11.) In a letter to us, the PI continued his assertions that there was nothing
in paper G worth copying:

       "But, although extending the . . . equations . . . is a simple, obvious procedure,
       there are no alternatives to this one procedure. Thus, from a conceptual point of
       view, no new theory is required to develop the.. . . methodology . . . . There is
       no alternative to this procedure. . . . [The authors of paper GI did not contribute
       any significant theory in [paper GI. " (Letter dated 11 April 1991, at pp. 6-10.)

        We are extremely troubled by these assertions by the PI, which seem to reflect a
fundamental lack of understanding of the seriousness of the plagiarism that was committed in
this case by a graduate student in the PI's charge. Regardless of whether the graduate student
was capable of doing the work himself, the fact is that in this case he did not: instead, the
graduate student obtained a pre-publication copy of paper G, took what those authors had done,
and put his name on it. That is plagiarism, which is misconduct in science under NSF's
regulation.

       We also note, with regard to the PI's denigration of the signif~canceof the method
presented in paper G, that he apparently thought it sufficiently important to submit it for
publication himself, in which paper he said the previous method in the literature had been
"extensively modifled", and he touted the method there presented as being "extremely efficient"
and "robust yet simple, accurate, and economical."
                                             v.
                                        Conclusion
        Paper H and the dissertation plagiarized virtually all of the substantive material in
paper G. The graduate student was responsible for this plagiarism, but because he has been
outside of the United States and has not received federal hnding for more than three years and
is not likely to apply for funding in this country in the future, we believe we should take no
action against the graduate student in this matter. The PI did not engage in misconduct in
science under NSF' s regulation.




                                                   Assistant Counsel to the Inspector General
                                                                              30 March 1992
                Comparison of Equations in
           Paper G. the Dissertation. and Paper H
Paper G   Dissertation   Pa-per H   Substantive differences (G -.Dissertation@
(1)       (4.1)          (1)
(5)       (4.2)          (1.a)
          (4.3)          (2)
          (4.4)          (2 a)
          (4.5)          (3)
          (4.6)          (4)
          (4.7)          (5)
          (4.8)          (6)
          (4.10)         (7)
          (4.14)         (8)
          (4.15)         (9)
          (4.16)         (10)
          (4.17)         (11)
          (4.18)         (12)
          (4.19)         (13)
          (4.20)         (14)
          (4.21)         (15)
          (4.22)         (16)
          (4.23)         (17)
          (4.24)         (18)
          (4.25)         (19)
          (4.26)         (20)
          (4.27)         (21)
          (4.28)         (22)
          (4.29)         (23)
          (4.30)         (24)
          (4.3 1)        (25)
          (4.33)         (26)
          (4.34)         (27)
          (4.37)         (28)
          (4.38)         (29)
          (4.39)         (30)
          (4.42)         (31)
          (4.43)         (32)
          (4.44)         (33)
Paper G   Dissertation   Paper H   Substantive differences (G -.Dissertation/H)
(43)      (4.45)         (34)      Signs of the right-hand terms are reversed
(44)      (4.46)         (35)      Signs of the right-hand terms are reversed
(49)      (4.47)         (36)
(50)      (4.48)         (37)
(51)      (4.49)         (38)      +d4,        -*   -dM,
(52)      (4.50)         (39)      dMp3   -*   d4.2
(56)      (4.51)         (40)      F is on other side of equation
(55)      (4.52)         (41)
(53)      (4.53)         (42)
(54)      (4.54)         (43)
(57)      (4.55)         (44)
(59)      (4.56)         (45)
(60)      (4.57)         (46)      Where H(34) and H(35) have reversed signs
                                   compared to G(43) and G(44), the terms
                                   associated with them are reversed in H(46)
                                   also; H(46) omits the terms associated with
                                   H(36) and H(37) "since their contribution is
                                   expected to be negligible, " citing an earlier
                                   paper than paper G by the other professor.
                         (47)
                         (48)
                         (49)
                         (50)
                         (5 1)
                         (52)
                         (53)      Signs of the right-hand terms are reversed
                         (54)      Signs of the right-hand terms are reversed
                         (A. 1)
                         (A. 2)
                         (A.3)
                         (A.4)
                         (A.5)
                         (A. 6)    Signs of 3d, 4th, 5th, & 6th terms on right
                                   side are reversed
                         (A. 7)
                         (A. 8)
                         (P-91)    In A,, and A,, the signs for the second terms
                                   are reversed
                         (A. 11)
                         (A. 16)
